           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
    BY THE LOUISIANA DISABILITY
     DETERMINATION SERVICES


  November 2005      A-06-05-15032




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   November 28, 2005                                                                   Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Administrative Costs Claimed by the Louisiana Disability Determination Services
        (A-06-05-15032)


        OBJECTIVE

        Our objectives were to (1) determine whether costs claimed on the State Agency Report
        of Obligations for SSA Disability Programs for the period October 1, 2001 through
        September 30, 2003, were allowable and properly allocated and funds were properly
        drawn; (2) evaluate Louisiana Disability Determination Services’ (LA-DDS) internal
        controls over the accounting and reporting of administrative costs; and (3) perform a
        limited review to assess the general security control environment.

        BACKGROUND
        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act provides benefits to wage earners and their families in the event the wage earner
        becomes disabled. The Supplemental Security Income (SSI) program, established
        under Title XVI of the Act, provides benefits to financially needy individuals who are
        aged, blind, or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by disability determination
        services (DDS) in each State, Puerto Rico and the District of Columbia in accordance
        with Federal regulations.1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, each
        DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
        consultative basis to supplement evidence obtained from the claimants’ physicians or
        other treating sources.

        1
            20 Code of Federal Regulations (CFR) §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Ramona Schuenemeyer

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with Office of Management and Budget (OMB) Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each
quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations for the FY.4 The Form SSA-4513 reports
expenditures and unliquidated obligations for Personnel Service Costs, Medical Costs,
Indirect Costs, and All Other Nonpersonnel Costs.

LA-DDS is a component of the Louisiana Department of Social Services (LA-DSS) and
has area offices in Baton Rouge, Shreveport, and New Orleans, Louisiana. LA-DSS
completes and submits Form SSA-4513, and prepares requests to transfer cash from
Treasury to the State Treasurer. As of June 30, 2005, LA-DDS had reported program
disbursements and unliquidated obligations on Form SSA-4513 as shown on the table
below.

                    LA-DDS Report of Disbursements and Unliquidated
                                       Obligations
              Reporting Item                  FY 2002        FY 2003
              Disbursements
                Personnel                     $15,800,625    $16,918,798
                Medical                       $10,212,691    $ 9,395,608
                Indirect Costs                $ 2,369,014    $ 2,686,907
                Other Nonpersonnel            $ 3,427,381    $ 3,663,914
              Total Disbursements             $31,809,711    $32,665,227
              Unliquidated Obligations                 $0       $ 18,1255




2
    31 C.F.R. § 205.1 et seq.
3
    Public Law 101-453.
4
  SSA, Program Operations Manual System (POMS), DI 39506.200 B.4, The Reporting Process –
Recording and Reporting Obligations states, “Unliquidated obligations represent obligations for which
payment has not yet been made. Unpaid obligations are considered unliquidated whether or not the
goods or services have been received.”
5
    This amount was cleared in the system as of July 1, 2005.
Page 3 – Ramona Schuenemeyer

RESULTS OF REVIEW

For FYs 2002 and 2003, disbursements charged to SSA for LA-DDS operations were
generally allowable and allocable and funds were properly drawn. However, we found
improper charges for payment of unused leave to terminated employees and internal
control weaknesses for the authorization and review of applicant travel disbursements.
We also identified areas of general security control where enhancements were needed.

PAYMENT OF UNUSED LEAVE TO TERMINATED EMPLOYEES

LA-DDS improperly charged costs associated with the payment of unused leave for
terminated employees. These costs should have been allocated as general
administrative expenses across all activities of the governmental unit or component. In
FY 2002, 34 employees separated from service and were given lump-sum payments
totaling $48,524 for their accumulated leave balances. In FY 2003, 33 employees
separated from service and were given lump-sum payments totaling $71,698.

Federal regulations state that payments for unused leave for employees who terminate
their employment through retirement or other separation are allowable “…provided they
are allocated as a general administrative expense to all activities of the governmental
unit or component.”6 Thus, the costs are not allowable as direct charges. Additionally,
on July 31, 2002, the Acting Associate Commissioner for Disability sent DDS
Administrators’ Letter No. 615 reminding the administrators of the correct procedure for
reporting payments for accumulated leave or severance pay when an individual leaves
employment. The letter urged DDSs to examine their indirect cost agreements to
ensure they are structured to account for payment of unused leave to retired/terminated
employees in accordance with OMB Circular A-87.7

ALLOWABILITY OF COSTS – APPLICANT TRAVEL

LA-DDS did not have adequate internal controls for applicant travel disbursements to
reduce the risk of fraud, waste, or mismanagement of funds. We found that taxi tickets
could be processed although they lacked the required authorizations, cab company
invoices could be paid although the attached tickets did not fully support the amount
invoiced, and the potential existed for duplicate payments. LA-DDS claimed $1,017,920
in applicant travel disbursements: $582,741 for FY 2002 and $435,179 for FY 2003.
The disbursements consisted of costs claimed by individuals and vendors. One vendor,
a cab company, received payments totaling $317,660, 31 percent of the $1,015,900.
To bill for its services, the cab company compiled the tickets each month and submitted
an invoice for the total of the batched tickets.



6
    OMB Circular A-87, Attachment B, Section 8.d (3). (Revised 5/10/04).
7
    DDSAL 615, effective July 31, 2002.
Page 4 – Ramona Schuenemeyer

In reviewing applicant travel disbursements, we expanded our sample to review the
specific charges submitted by the cab company. Due to fluctuations in vendor
payments to this cab company, we randomly selected two monthly invoices for this
company--one from FY 2003 which is within the scope of our review and one in FY
2004 to review the most current information. The monthly invoices contained 190 and
387 taxi tickets, respectively. From each of the monthly invoices, we selected a random
sample of 45 tickets to ensure the payments were properly authorized. In addition, we
reviewed all the attached tickets from the invoices for the 2 months selected plus tickets
from invoices for 4 additional months to determine whether any duplicate payments had
been made. For the 6 months, 1,823 tickets, totaling $102,822, in applicant travel costs
were itemized for the 6 monthly invoices.

We found 8 of the 90 tickets attached to 2 of the invoices were not signed as
authorized. We did not find any duplicate tickets from reviewing the tickets attached to
the 6 invoices; however, we found that all of the invoices were not properly supported.
Federal cost principles in OMB Circular A-87 state “costs must… be adequately
documented”8 to be allowable. We were unable to determine whether any of the 60
missing tickets represented billings for duplicate charges. We did find a separate
instance, apart from the tickets tested from the 6 months selected, where an area office
made a duplicate payment to a vendor within a 2-day period.

We determined the LA-DDS staff responsible for processing the invoices for payment
did not verify that tickets were properly authorized or that the attached tickets
adequately supported the amounts the vendor invoiced. Per our discussions with
LA-DDS, we found that there were no written policies and procedures to ensure that
applicant travel costs are reasonable, properly authorized, and adequately supported.
Further, the potential for error was greater for vendor payments than for individual
payments because the LA-DDS used the information in the claimant’s consultative
examination file to verify the claimant was scheduled for an examination and travel was
authorized. However, payments to transportation companies were not maintained in the
payment history of the claimant’s file. Consequently, LA-DDS was not able to detect
duplicate vendor payments.

GENERAL SECURITY CONTROLS

We conducted general security controls reviews at three area offices and identified the
following weaknesses:

•     The LA-DDS contract for janitorial services provided for cleaning services after
      business hours when DDS employees were not present. The janitorial staff were not
      escorted when they cleaned the buildings. SSA policy states that “Under no
      circumstances is a non-employee to be left unescorted in any area of the DDS.”9

8
    OMB Circular A-87, Attachment A, Section C.1 (j) (Revised 5/10/04).
9
    SSA, POMS, DI 39566.120 C.1.f., DDS Sample Security Profile – Exhibit 1.
Page 5 – Ramona Schuenemeyer

      Additionally, SSA policy states “SSA requires that all claimant records and files be
      maintained in a locked drawer, cabinet or room when there is no authorized
      individual on location...”10 During our site visits, we noticed that several employees
      left sensitive materials on their desks when they went home for the night.

•     Security access codes in two area offices were not changed after an employee left
      employment of the DDS. Combination or cipher lock codes should be changed
      when staff with knowledge of them leaves or no longer has a need to know them, or
      whenever compromise of the code occurs or is suspected.11

•     The security environment did not prohibit unauthorized access to one of the area
      offices. The unrestricted public access created a risk of unauthorized access to
      LA-DDS office space and sensitive SSA information during and after non-working
      hours. SSA policy states that “Under no circumstances is a non-employee to be left
      unescorted in any area of the DDS.”12

CONCLUSION AND RECOMMENDATIONS

LA-DDS disbursements charged to SSA for FYs 2002 and 2003 were generally
allowable and allocable except for payments for unused leave balances paid to
employees who terminated their employment with the LA-DDS. We identified internal
control weaknesses with the authorization and review of applicant travel costs and cited
weaknesses with general security controls.

We recommend that SSA instruct the LA-DDS to:

1. Refund costs charged to SSA for unused leave payments for LA-DDS employees
   who terminated their employment through retirement or other separation. This
   consisted of $48,524 identified during FY 2002 and $71,698 during FY 2003.

2. Develop written policies and procedures to ensure that applicant travel costs are
   reasonable, properly authorized, and adequately supported.

3. Ensure security codes are changed timely in the event of staff departure or a
   possible security breach.

4. Implement improved security measures to prohibit unauthorized access to SSA
   facilities.



10
     SSA, POMS, DI 39566.080 A.1., Safeguarding and Disposition of Data and Records.
11
     DDS, Security Document, Chapter VII Physical Security, Access Controls.
12
     SSA, POMS, DI 39566.120 C.1.f., DDS Sample Security Profile – Exhibit 1.
Page 6 – Ramona Schuenemeyer

SSA COMMENTS

SSA agreed with all our recommendations. Concerning recommendation 1, SSA
agreed that terminal leave payments should be charged as part of indirect costs.
However, based on notification from the United States Department of Health and
Human Services, SSA has decided not to pursue these funds retroactively. The full text
of SSA’s comments is included in Appendix D.

STATE AGENCY COMMENTS
The LA-DSS agreed with all our recommendations. Concerning recommendation 1,
while the LA-DSS agreed that terminal leave payments should be charged as part of
indirect costs, it did not agree with the request for reimbursement. Pursuant to
notification from the United States Department of Health and Human Services, LA-DSS
did not believe these funds should be charged retroactively. However, the DDS agreed
to take corrective action for future terminal leave payments. The full text of the
Agency’s comments is included in Appendix E.

OIG RESPONSE
We appreciate SSA and the DDS’s agreement to our recommendations. Concerning
recommendation 1, we are encouraged that the LA-DDS will charge these costs
appropriately in the future.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Louisiana Disability Determination Services, Schedule of Costs
             Reported, Questioned and Allowed

APPENDIX D – SSA Comments
APPENDIX E – State Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
C.F.R.          Code of Federal Regulations
DI              Disability Insurance
DDS             Disability Determination Services
Form SSA-4513   State Agency Report of Obligations for SSA Disability
                Programs
FY              Fiscal Year
LA-DDS          Louisiana Disability Determination Services
LA-DSS          Louisiana Department of Social Services
OMB             Office of Management and Budget
POMS            Program Operations Manual System
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
                                                                      Appendix B

Scope and Methodology
We reviewed the administrative costs the Louisiana Disability Determination Services
(LA-DDS) reported to the Social Security Administration (SSA) on State Agency Report
of Obligations for SSA Disability Programs (Form SSA-4513) for the period
October 1, 2001 through September 30, 2003. We obtained sufficient evidence to
evaluate administrative costs in terms of their allowability under Office of Management
and Budget Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, and appropriateness as defined by SSA’s Program Operations Manual
System. The LA-DDS reported disbursements of $31,809,711 in Fiscal Year (FY) 2002
and $32,665,227 in FY 2003.

To accomplish our audit objectives, we

•   obtained computerized data from the State to support amounts reported on
    Form SSA-4513 and tested the reliability of the data by comparing disbursements,
    by category and in total, with amounts reported on Form SSA-4513.

•   reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.

•   reconciled the accounting records to the costs reported by LA-DDS on its Form
    SSA-4513 for FYs 2002 and 2003.

•   reviewed LA-DDS’ policies and procedures related to personnel, medical, indirect,
    and non-personnel costs.

•   interviewed staff from SSA, Louisiana Department of Social Services, and LA-DDS.

•   documented our understanding of the LA-DDS’ system of internal controls over the
    accounting and reporting of administrative costs.

•   conducted limited general control testing related to physical access security and
    security within the LA-DDS.

•   selected a random sample of personnel, medical, and non-personnel costs.

    ¾ sampled 50 employees from one pay period in FY 2003 and traced information to
      accounting records, timesheets, and personnel files.

    ¾ sampled all 52 medical consultants on the LA-DDS staff paid during one pay
      period in FY 2003. We then determined whether the consultants were paid



                                           B-1
       according to the terms of the employment contract and ensured the selected
       medical consultants were licensed.

    ¾ sampled 50 medical cost payments from both FY 2002 and FY 2003 using a
      stratified random sample. We stratified medical costs into Medical Evidence of
      Record and Consultative Examinations and determined whether sampled costs
      were allowable.

    ¾ sampled 50 transactions per year from the all other non-personnel cost category
      from the 2,916 transactions for FY 2002, and 2,893 transactions for FY 2003.
      We also compared the sampled transactions to supporting documentation.

•   examined indirect costs claimed by LA-DDS for FYs 2002 and 2003 and the
    corresponding Cost Allocation Plans.

•   conducted an expanded review of applicant travel disbursements for FYs 2003 and
    2004.

The entity audited was the LA-DDS within the Louisiana Department of Social Services.
We performed our audit at the LA-DDS State Office in Baton Rouge, Louisiana; the
Baton Rouge, Shreveport, and New Orleans, Louisiana Area Offices; Louisiana
Department of Social Services Fiscal and Management Offices, Baton Rouge, LA; and
the SSA Regional Office Dallas, Texas. We conducted our audit in accordance with
generally accepted government auditing standards.




                                          B-2
                                                       Appendix C


Louisiana Disability Determination Services,
Schedule of Costs Reported, Questioned and
Allowed
                            FY 2002 COSTS
     Description   Costs Reported Costs Questioned    Costs Allowed
 Personnel              $15,800,625        $48,524        $15,752,101
 Medical                $10,212,691              $0       $10,212,691
 Indirect                $2,369,014              $0         $2,369,014
 All Other               $3,427,381              $0         $3,427,381
   Totals               $31,809,711        $48,524        $31,761,187


                            FY 2003 COSTS
     Description   Costs Reported Costs Questioned    Costs Allowed
 Personnel              $16,918,798        $71,698        $16,847,100
 Medical                 $9,395,608              $0         $9,395,608
 Indirect                $2,686,907              $0         $2,686,907
 All Other               $3,663,914              $0         $3,663,914
   Totals               $32,665,227        $71,698        $32,593,529
               Appendix D

SSA Comments
                                     SOCIAL SECURITY

MEMORANDUM

Date:     October 21, 2005

To:       Patrick P. O’Carroll, Jr
          Inspector General

From:     Ramona Schuenemeyer
          Regional Commissioner
          Dallas

Subject   Administrative Costs Claimed by the Louisiana Disability Determination Services
          (A-06-05-15032) -- Reply


          We appreciate the opportunity to comment on this draft audit report. We are generally
          in agreement with each of the recommendations and are working with the DDS to
          implement any necessary changes. We appreciate the willingness of OIG Audit staff in
          the Dallas Region to work with us during the course of the audit.

          Our responses to the recommendations contained in the narrative report are as
          follows:

          1. Refund costs charged to SSA for unused leave payments for Louisiana DDS
             employees who terminated their employment through retirement or other
             separation.

                We agree that terminal leave payments should be charged as part of indirect
                costs. The Louisiana DDS indirect cost charges are allocated as part of the
                Department of Social Services cost allocation plan which is approved by the
                Department of Health and Human Services. The cost allocation plan was revised
                effective in FY 2005 and terminal leave is now included in the cost pools and
                allocated to the DDS. In a letter dated October 15, 2004, the Louisiana
                Department of Social Services was notified that the United States Department of
                Health and Human Services would not enforce retroactivity of these provisions for
                state agencies but will instead enforce these provisions prospectively beginning
                October 1, 2004. Therefore, we consider the terminal leave charges to be non-
                refundable for FY 2002 and FY 2003.

          2. Develop written policies and procedures to ensure that applicant travel costs are
             reasonable, properly authorized, and adequately supported.


                                                    D-1
      We concur. The DDS has reviewed and strengthened their applicant travel
      authorization process.

3. Ensure security codes are changed timely in the event of staff departure or a
   possible security breach.

     We concur. The DDS is aware of the need to change codes on a timely basis.

4. Implement improved security measures to prohibit unauthorized access to the SSA
   facilities.

     We concur. We are working with the DDS to secure their space and prohibit
     unauthorized access.

If you would like to discuss this, please call me. If your staff has questions, please have
them call Irving Wilkerson at 214-767-4281 in Management and Operations Support,
Center for Disability.




                                            D-2
                        Appendix E

State Agency Comments
                            State of Louisiana
                             Department of Social Services
                                  OFFICE OF THE SECRETARY
                                 755 THIRD STREET 2ND FLOOR
KATHLEEN BABINEAUX BLANCO                P.O. BOX 3776               ANN SILVERBERG WILLIAMSON
     GOVERNOR                PHONE - 225/342-0286 FAX 225/342-8636            SECRETARY
                                BATON ROUGE, LOUISIANA 70821



     November 18, 2005

     Patrick P. O’Carroll, Jr.
     Inspector General
     Social Security Administration

     Re: Administrative Costs Claimed by the Louisiana Disability Determination
     Services (A -06-05-15032)

     Dear Sir:

     This letter provides the Department of Social Services response to the draft
     audit report of the Louisiana Disability Determination Services. We
     appreciate this opportunity to comment. We will work with the DDS to
     implement any necessary changes. Our remarks are noted below.

     Recommendation 1: Refund costs charged to SSA for unused leave
     payments for Louisiana DDS employees who terminated their employment
     through retirement or other separation.

     Response: The Department of Social Services agrees that terminal leave
     payments should be charged as part of indirect cost, however we do not
     agree to the request for reimbursement. The Louisiana DDS indirect cost
     charges are allocated as part of the Department of Social Services cost
     allocation plan which is approved by the U. S. Department of Health and
     Human Services. The cost allocation plan was revised effective in FY 2005
     and terminal leave is now included in the cost pools and allocated to the
     DDS. In a letter dated October 15, 2004, the Louisiana Department of Social
     Services was notified that the United States Department of Health and
     Human Services would not enforce retroactivity of these provisions for state
     agencies but will instead enforce these provisions prospectively beginning
     October 1, 2004. Therefore, we consider the terminal leave charges to be
     non-refundable for FY 2002 and FY 2003.


                                             E-1
Recommendation 2: Develop written policies and procedures to ensure that
applicant travel costs are reasonable, properly authorized, and adequately
supported.

Response: The DDS has reviewed and strengthened their applicant travel
authorization process.

Recommendation 3: Ensure security codes are changed timely in the event
of staff departure or a possible security breach.

Response: The DDS is aware of the need to change codes on a timely basis
and does so when appropriate.

Recommendation 4: Implement improved security measures to prohibit
unauthorized access to the SSA facilities.

Response: The Department leases space for the DDS and will work with the
owner, but any modifications must meet with the landlord’s approval and be
funded by SSA.

If you have any questions or need additional information, please let me know.

Sincerely,

    /S/

Ann S. Williamson
Secretary
Department of Social Services




                        “AN EQUAL OPPORTUNITY EMPLOYER”




                                     E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

Staff Acknowledgments

In addition to those named above:

   Warren Wasson, Auditor-in-Charge

   Ashley Moore, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-05-15032.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.


                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
